May 27, 2008

GEORGE W. WRIGHT
VICE PRESIDENT, INFORMATION TECHNOLOGY OPERATIONS

SUBJECT: Audit Report – Private Branch Exchange Systems
         (Report Number IS-AR-08-010)

This report presents the results of our audit of the Private Branch Exchange (PBX)
systems (Project Number 07RG004IS000). Our objective was to determine if the U.S.
Postal Service has the opportunity to reduce telecommunications expenses by reducing
trunk space to the most cost-efficient level while still maintaining Postal Service
operations. This self-initiated audit addresses the financial risk associated with
maintaining telecommunications resources. We conducted this audit in partnership with
the Headquarters Telecommunications staff, which provided input and guidance that
helped achieve our objective. Click here or go to Appendix A for additional information
about this audit.

Conclusion

The Postal Service has an opportunity to reduce telecommunications expenses by
eliminating overcapacity in PBX voice services. We estimate cost-saving opportunities
with a total monetary impact of $1,330,781 (funds put to better use of $1,316,533 and
$14,248 of questioned costs) by eliminating 91 lines identified in this audit and removing
97 supporting circuit cards.

Elimination of Overcapacity

We identified 97 PBX voice lines1 that exceed current and anticipated capacity
requirements and can be eliminated without adversely impacting operations. This
condition occurred because PBX management is decentralized and telecommunications
technologies and user needs change frequently. In addition, linking inventory
information to detailed invoices and contract data was not always possible. Best
practices suggest an accurate up-to-date inventory, detailed invoices, and applicable
contract information are the primary sources of information that managers need to
ensure they understand what goods and services they should purchase. We found this
information difficult to obtain, which contributed to the Postal Service paying for PBX


1
 The OIG identified 97 lines, but six of them do not have recurring monthly charges. These lines do, however, incur
annual monitoring and maintenance costs the Postal Service can reduce.
Private Branch Exchange Systems                                                                             IS-AR-08-010



resources they no longer needed. Click here or go to Appendix B for our detailed
analysis of this issue.

During this audit, we suggested enhancing future traffic studies by including
“exceptions” or “alerts” to notify responsible officials when a traffic study indicated
potential overcapacity. The Sprint account representative stated their contractor is
developing an email “alert” to notify Headquarters Telecommunications officials when a
specific traffic study indicates potential overcapacity. If management eliminates the
excess lines, there will be a savings of $1,143,610 over the next 2 years.

We recommend the Vice President, Information Technology Operations, direct the
Manager, Telecommunications Services, to:

1. Discontinue voice services for the 91 lines that service the Postal Service’s Private
   Branch Exchange systems and those that we identified as overcapacity.

2. Centralize management of Private Branch Exchange (PBX) systems, assign
   resources to regularly monitor traffic studies, and take action necessary to ensure
   PBX capacity is appropriate.

Monitoring Services

The Postal Service has the opportunity to reduce line monitoring services by removing
circuit cards supporting the lines being eliminated. Currently, vendors charge the Postal
Service $964.80 per circuit card to monitor and maintain each line on an annual basis.2
If management removes the circuit cards, there will be $187,171 in savings over the
next 2 years.3

We recommend the Vice President, Information Technology Operations, direct the
Manager, Telecommunications Services, to:

3. Remove the Private Branch Exchange circuit cards that support disconnected lines.

Management’s Comments

Management agreed with all of the recommendations and stated that
Telecommunications Services will coordinate with service providers, telephone
equipment suppliers, and invoice management contractors to disconnect the 91 lines by
November 15, 2008. Information Technology will secure the necessary services
through their supplier to obtain monthly utilization reports and establish a process by
November 30, 2008, to ensure capacities are managed and monitored appropriately.
Additionally, management stated that the Raleigh Information Technology Service
Center will coordinate circuit card removal and maintenance port reductions with the
2
    Monitoring and maintenance includes one traffic study per line.
3
    For the 97 circuit cards, we multiplied 97 by $964.80 (annual charge) for a 2-year period, for a total of $187,171.20.



                                                              2
Private Branch Exchange Systems                                             IS-AR-08-010



supplier and align the PBX maintenance contract by December 15, 2008. Although
management did not specifically state they agreed with the monetary impact, their
planned corrective actions imply agreement. We have included management’s
comments in their entirety. Click here or go to Appendix D for management’s
comments.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report.

The OIG considers all the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Gary C. Rippie, Director,
Information Systems, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: H. Glen Walker
    Lynn L. Malcolm
    Ross Philo
    Harold E. Stark
    G. Dean Larrabee
    Larry K. Wills
    Katherine S. Banks




                                          3
Private Branch Exchange Systems                                                                        IS-AR-08-010



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

A PBX is a private telephone network that is capable of supporting hundreds or
thousands of extensions. A PBX uses “T-1”4 lines to connect to the local service
provider where incoming calls are routed using Direct Inward Dialing (DID). The Postal
Service uses 492 PBX systems at many of their larger facilities.5 Sprint’s Managed
Network Operations manages security of these devices and also provides InfoPlus
traffic studies for each system at least once a year. Traffic studies provide information
on trunk utilization, grade of service, and required resources.

Day-to-day responsibility for field PBX systems is decentralized. However, systems
located at headquarters and Inspection Service facilities are the responsibility of
Headquarters Telecommunications Services. Headquarters Telecommunications
Services also provides oversight for higher level issues such as contract negotiations
and renewals.

Because day-to-day management of telecommunications resources is decentralized,
efforts to maintain accurate inventories were irregular. Complex telecommunications
invoices, combined with confusion over responsibility for verifying the information prior
to payment, complicated the situation.

The Postal Service hired contractors to help manage telecommunications resources
(Profitline) and to provide a single location (Sprint) for all telecommunications staff to
coordinate change requests. These contracts were intended to help the Postal Service
improve the accuracy of their inventory information and help optimize their resources at
the most cost-efficient level while still maintaining operations.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our original objectives were to evaluate whether existing controls over PBX services
were sufficient to safeguard against potential security vulnerabilities and to assess
whether the Postal Service has opportunities to reduce telecommunication expenses by
eliminating unneeded PBX capacity. During the audit we narrowed our objectives to
determining if the Postal Service has the opportunity to reduce telecommunications
expenses nationwide by reducing trunk space to the most cost-efficient level while still
maintaining Postal Service operations. We deferred our review of potential security
vulnerabilities for inclusion in a future audit.


4
  “T-1” lines are dedicated phone connections that consist of 24 individual channels, each of which can be configured
to support voice or data up to 64k per second.
5
  The most common “T-1s” are Primary Rate Interface (PRI) into PBXs configured as either local dial tone circuits or
dedicated long-distance circuits. The Postal Service also uses a type of “T-1” line called Government Market
Platform (GMP) which charges a lower monthly fee than other “T-1s” but has additional charges based on usage.



                                                          4
Private Branch Exchange Systems                                                 IS-AR-08-010



We reviewed PBX traffic studies for the 492 Postal Service PBX systems and
communicated our results to responsible officials at Telecommunications Headquarters
and field offices to gain their concurrence or record their disagreement. We attempted
to identify specific costs for the lines targeted for elimination. This proved problematic
because most of the invoices were summary invoices that did not contain adequate
detail to determine exact costs by individual lines.

This process was further complicated because we could not link the physical address of
the PBX system listed in the traffic studies to the information on the telecommunications
invoices. Telecommunications service providers generally manage their accounts using
master billing telephone numbers rather than a physical address or the customer
number used in the traffic studies. As a result, we requested customer service records
from telecommunication service providers in order to reconcile the service to the
invoice.

For lines that we were unable to reconcile to an invoice, we used an “average” cost
figure we calculated by benchmarking telecommunications costs from current vendor
advertising rates and future proposals for contracts with the Postal Service. In addition,
we calculated the average cost of the lines we had specific invoices for and compared
this actual cost to the benchmarked cost. Using a conservative approach, Postal
Service officials and the OIG agreed to use $525 for all lines except a few GMP lines
that would cost $193 per month. We used these figures to calculate savings for lines
where we did not have specific invoices, combined this information with the cost of the
11 lines where we had invoices, and projected the cost over 24 months. In addition, we
calculated the annual cost savings of reducing line monitoring and maintenance
contract costs for the lines we recommend the Postal Service eliminate. Click here or
go to Appendix C for our detailed analysis.

We conducted this performance audit from April 2007 through May 2008 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We relied on data from the Sprint Traffic Studies and 11 invoices from service providers.
We did not directly audit the Sprint system, but performed a limited data integrity review
by validating the results of this information with Headquarters Telecommunications and
field Information Systems officials to support our data reliance. We discussed our
observations and conclusions with management officials during the audit and on April
21, 2008, and included their comments where appropriate.




                                             5
Private Branch Exchange Systems                                                           IS-AR-08-010




PRIOR AUDIT COVERAGE

                                      Final
                         Report      Report         Monetary
    Report Title        Number         Date          Impact                  Report Results
 Headquarters        IS-AR-07-011   4/30/2007         $122,772   Pagers have become obsolete and
 Cellular Services                                               their services have been replaced by
                                                                 other mobile devices. As a result, the
                                                                 Postal Service discontinued the
                                                                 widespread use of pagers.
 Audit of Cellular   IS-AR-07-010   3/29/2007       $6,821,185   The Postal Service has opportunities
 Services                                                        to capture savings of cellular services
                                                                 by centralizing management control
                                                                 and eliminating unneeded services
                                                                 and devices.
 National Voice      IS-AR-05-016   9/30/2005       $9,883,972   The Postal Service can capture
 Services –                                                      savings by performing comprehensive
 Savings                                                         inventory and assessments of local
 Opportunities                                                   telephone lines in accordance with
                                                                 existing policy.
 Security Controls   IS-AR-05-007   4/18/2005        $361,716    The Louisiana District has
 in Voice Systems                                                opportunities to capture savings by
 – Louisiana                                                     eliminating overpayments, duplicate
 District                                                        billings, and unnecessary telephone
                                                                 lines.




                                                6
Private Branch Exchange Systems                                                                          IS-AR-08-010



                                 APPENDIX B: DETAILED ANALYSIS

Elimination of Overcapacity

Through our review of PBX traffic studies, we identified 91 PBX voice lines that exceed
current and anticipated capacity requirements and can be eliminated without adversely
impacting operations. We provided the physical addresses for the 91 oversubscribed
PBX systems and requested invoices for the voice lines servicing these systems. The
contractor was unable to provide us with many of these invoices because they needed a
master billing telephone number in order to identify the appropriate invoice.

The system that provided the traffic studies and the PBX inventory information relied on
physical addresses and customer account numbers and had no records of master billing
numbers. As a result, it proved extremely difficult to reconcile the PBX voice services to
appropriate invoices. In the majority of cases, we were only able to obtain a summary
invoice that contained charges for many Postal Service facilities we did not include in
our PBX audit. We were only able to identify the actual charges associated with the
lines servicing a specific PBX for 11 of the 91 lines.

Best practices in telecommunications management suggests that gaining control over
telecommunications expenses, auditing invoices, enforcing service level agreements,
and performing business analysis are all components of a solid telecommunications
expense management (TEM) process. For an organization to attain the greatest
savings through TEM, three main data sources are required:

    •    Inventory – to understand what should be paid for and how services are
         configured.

    •    Invoices – to understand what the carriers are billing.

    •    Contract information – to verify the carriers are billing correctly according to the
         contract requirements.

Ideally, this information would be most useful if combined in a single database.6
The fact that this information was not readily available contributed to our inability to
accurately identify PBX expenditures for excess telecommunications services.

The audit also identified two facilities where an active PBX was located even though the
facility had been closed. One facility had been closed for more than 2 years and the
other had been closed for 6 months. We obtained actual invoices for both of these
facilities. As a result, we calculated questioned costs going back in time to the date the

6
  Suggested fields of information are: Service Provider, Circuit and Service Type, Circuit ID and Phone Number,
Account Number and Sub-Account Number, Circuit and Service Status (for example, in service or out-of-service),
Facility Name and Location (street, city, state, and zip), Quoted Amount for Service, Install Date, Disconnect Date,
Change Date, Port Speed, Contract Length (if applicable), Features (if applicable), and Recent Traffic Study.



                                                           7
Private Branch Exchange Systems                                                                        IS-AR-08-010



facility closed and the PBX should have been shut down. This resulted in $14,248 in
questioned costs and $31,1407 of funds put to better use identified in the audit.

In addition, the Postal Service has another opportunity to reduce telecommunications
expenses by reducing the number of lines requiring monitoring and maintenance.
Sprint, the contractor providing this service, uses an electronic scanning process to
determine how many circuits are in use. They charge the Postal Service XXxXXXX per
circuit, per year. Account representatives from Sprint explained that if the Postal
Service removes the circuit board for each eliminated line, the future scans will only
count the active lines in use. As a result, the Postal Service will save XXXXXXX per
circuit, per year. We identified XX lines where management could remove the circuit
cards, which would result in a savings of $187,171.20 over 2 years.8

Corrective Action Started

During this audit, we suggested enhancing future traffic studies by including
“exceptions” or “alerts” to notify responsible officials when a traffic study indicated
potential overcapacity. A Sprint account representative stated their contractor is
developing an email “alert” that would be sent to Headquarters Telecommunications
officials notifying them that a specific traffic study indicates potential overcapacity. This
system will help telecommunications managers identify which traffic studies warrant
their immediate attention and will help ensure resources are optimized to support voice
operations. Based on these actions, we are not providing a recommendation at this
time.

Future Technology Change

During this audit, telecommunications managers stated they expect the Postal Service
to migrate from traditional voice systems to Voice Over Internet Protocol (VOIP) in 5-6
years. VOIP converts analog telephone signals into digital signals and then uses the
internet to transmit these digital signals. This effort would be a significant change in
technology for the Postal Service and, while the agency could save costs, capturing
these savings would depend on turning off unneeded services. As a result, it is critical
for the Postal Service to have an inventory system in place containing detailed data
similar to the data previously described to ensure eliminating outdated services in a
timely manner.

Since this is a future technology implementation and management has not established
formal plans, we are not providing a recommendation at this time.




7
 $31,140 of funds put to better use is included in the $1,129,362 of funds put to better use figure in Appendix C.
8
 The OIG identified 97 lines but six of these lines do not have recurring monthly charges. However, these six lines
do incur annual monitoring and maintenance costs the Postal Service can reduce.



                                                          8
 Private Branch Exchange Systems                                                                             IS-AR-08-010



                         APPENDIX C: CALCULATION OF FUNDS PUT TO
                            BETTER USE AND QUESTIONED COSTS

 The following table represents our summary of the cost savings the Postal Service
 could achieve if management implements our recommendations. We provided
 additional details, including the location of PBX sites, the number of lines we
 recommend the Postal Service eliminate, the cost savings projected for each line, and
 the name of the Postal Service official responsible for eliminating lines in a separate
 document to Headquarters Telecommunications officials.

Number of                                                        Funds Put
 Lines or                                                         to Better          Questioned           Total Monetary
 Circuits                    Description                             Use               Costs                  Impact
    91            T-1, PRI, and GMP lines                         $1,129,362
                  discontinued.
     97           Circuit cards for servicing                         187,171
                  PBX systems that can be
                  removed will reduce
                  monitoring and maintenance
                  contract costs.
                  SUBTOTAL                                        $1,316,533
     3            PRI lines being turned off at                                            $14,248
                  facilities that have already
                  closed.9
                  SUBTOTAL                                                                 $14,248

                  TOTAL                                                                                          $1,330,781




 9
   We included future costs for the two closed facilities in the funds put to better use figure since we included the three
 eliminated lines at these facilities in our testing.



                                                             9
Private Branch Exchange Systems                           IS-AR-08-010



                      APPENDIX D: MANAGEMENT’S COMMENTS




                                     10
Private Branch Exchange Systems        IS-AR-08-010




                                  11
